TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                              Increasing Requests for
                            Offers in Compromise Have
                          Created Inventory Backlogs and
                          Delayed Responses to Taxpayers



                                          March 30, 2012

                              Reference Number: 2012-30-033




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


INCREASING REQUESTS FOR OFFERS                      December 31, 2010, may not have been
IN COMPROMISE HAVE CREATED                          contacted when promised.
INVENTORY BACKLOGS AND DELAYED                      Additionally, as of October 25, 2011, there were
RESPONSES TO TAXPAYERS                              7,472 unassigned offers in holding queues
                                                    awaiting assignment to OIC staff. TIGTA found
                                                    that one processing site had more than four
Highlights                                          times as many unassigned offers from
                                                    self-employed taxpayers compared with the
Final Report issued on March 30, 2012               other site, and 37 percent of the offers were
                                                    more than six months old.
Highlights of Reference Number: 2012-30-033
to the Internal Revenue Service Commissioner        TIGTA also determined that an incorrect date
for the Small Business/Self-Employed Division.      was used when offers were returned to the IRS
                                                    because of IRS processing errors. TIGTA
IMPACT ON TAXPAYERS                                 estimates that the wrong date may have been
                                                    used for 712 taxpayers who submitted offers
An offer in compromise (OIC) is an agreement        between July 1 and December 31, 2010.
between a taxpayer and the Federal                  Finally, the IRS does not have formal
Government that settles a tax liability for         performance measures for streamlined offers.
payment of less than the full amount owed.
TIGTA found that the IRS did not always contact     WHAT TIGTA RECOMMENDED
taxpayers when promised, and inventory
backlogs caused processing delays. Delays           TIGTA recommended that the IRS revise OIC
could impact financial and business decisions       processing procedures, train employees, and
because taxpayers do not know if or when their      add a formal performance measure for the
tax liabilities will be resolved.                   streamlined offers or apply the streamlined
                                                    process to all offers.
WHY TIGTA DID THE AUDIT
                                                    In their response to the report, IRS officials
From 2001 through 2009, the National Taxpayer       agreed with the recommendations and plan to
Advocate reported the OIC Program as one of         take appropriate corrective actions. The IRS
the most serious problems facing taxpayers.         plans to keep taxpayers better informed by
This audit was initiated to assess the              increasing the amount of time they tell taxpayers
effectiveness of the OIC Program to timely          it will take until they are contacted as well as
process requests, consistently apply OIC            issuing an interim letter if contact is not made
guidelines, accurately measure Program results,     within the specified time. The IRS plans to
and effectively promote the Program.                initiate reassignment of offers between the sites
                                                    as needed. In addition, the IRS plans to apply
WHAT TIGTA FOUND                                    most aspects of the streamlined process to the
The combined impact of a weak economy and           remainder of the OIC cases. Also, the IRS
IRS efforts to promote the OIC Program has          agreed with the outcome measures in the report.
increased the number of requested offers by
28 percent between Fiscal Year 2007 and Fiscal
Year 2011. However, the resources available to
work the offers have decreased. TIGTA
reviewed a statistically valid sample of offers
and found the IRS did not process all offers
timely. In 73 (74 percent) of 99 offers, the IRS
failed to contact the taxpayer by the promised
date. TIGTA estimates that 9,509 taxpayers
who submitted offers between July 1 and
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 30, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Increasing Requests for Offers in Compromise
                                 Have Created Inventory Backlogs and Delayed Responses to Taxpayers
                                 (Audit # 201130014)

 This report presents the results of our review to determine the effectiveness of the Offer in
 Compromise1 (OIC) Program to timely process requests, consistently apply OIC guidelines,
 accurately measure Program results, and effectively promote the Program. This audit is included
 in our Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
 Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.




 1
     See Appendix V for a glossary of terms.
                         Increasing Requests for Offers in Compromise Have Created
                           Inventory Backlogs and Delayed Responses to Taxpayers




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Has Taken Positive Steps to
          Improve and Promote the Offer in Compromise Program............................ Page 3
          Offers Were Not Always Processed Timely ................................................. Page 4
                    Recommendation 1:........................................................ Page 8
                    Recommendations 2 and 3: .............................................. Page 9

          Offers Reconsidered Due to Internal Revenue Service
          Processing Errors Are Improperly Delayed .................................................. Page 9
                    Recommendation 4:........................................................ Page 10

          Streamlined Offers Lack Formal Performance Measures ............................. Page 10
                    Recommendation 5:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Glossary of Terms ................................................................. Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 20
        Increasing Requests for Offers in Compromise Have Created
          Inventory Backlogs and Delayed Responses to Taxpayers




                      Abbreviations

AOIC            Automated Offer in Compromise
COIC            Centralized Offer in Compromise
FY              Fiscal Year
IRS             Internal Revenue Service
OIC             Offer in Compromise
SB/SE           Small Business/Self-Employed
                       Increasing Requests for Offers in Compromise Have Created
                         Inventory Backlogs and Delayed Responses to Taxpayers




                                              Background

An offer in compromise1 (OIC) is an agreement between a taxpayer and the Federal Government
that settles a tax liability for payment of less than the full amount owed. Treasury regulations
authorize the Internal Revenue Service (IRS) to settle a tax debt on any one of three grounds:
doubt that more than the offered amount can be collected, a verifiable doubt as to the amount
owed, or to promote effective tax administration.2 Policy Statement P-5-100 allows the IRS to
accept an OIC when it is unlikely that the tax liability can be collected in full and the amount
offered reasonably reflects collection potential. An OIC is a legitimate alternative to declaring a
case currently not collectible or to initiating a protracted installment agreement.
The objectives of the OIC Program are to:
          Facilitate collection of what can reasonably be collected at the earliest possible time and
           at the least cost to the Federal Government.
          Achieve a resolution that is in the best interests of both the individual taxpayer and the
           Federal Government.
          Provide the taxpayer with a fresh start toward future voluntary compliance with all filing
           and payment requirements.
          Secure revenue that may not be collected through any other means.
A request for an OIC is submitted on Form 656, Offer in Compromise, and may require an
application fee of $150 and a non-refundable payment equal to 20 percent of the offer amount,
depending on the type of offer and whether the taxpayer qualifies for the low-income exemption.
All initial offer receipts that are submitted must be processed by the appropriate Centralized
Offer in Compromise (COIC) sites located in Holtsville, New York, and Memphis, Tennessee.
If the IRS does not make a determination on an OIC within 24 months, the OIC will be
considered accepted.
From 2001 through 2009, the National Taxpayer Advocate reported the OIC Program as one of
the most serious problems facing taxpayers. The IRS has commissioned studies over the last two
years to help improve and promote the OIC Program. Some of the recommendations from these
studies have been implemented including: simplifying the OIC form and instructions, making
the OICs more accessible on the IRS.gov website, creating an OIC informational video that is
accessible through the “You Tube” website, and testing a “Fresh Start” initiative to target

1
    See Appendix V for a glossary of terms.
2
    Treasury Regulation §301.7122-1.

                                                                                                 Page 1
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



currently not collectible hardship taxpayers for future tax compliance by informing taxpayers
that they may be eligible to pay a portion of their taxes and interest owed through the OIC
Program.
In Fiscal Year (FY) 2010, the Small Business/Self-Employed (SB/SE) Division initiated the
streamlined OIC process to help expedite the processing of offers for qualified taxpayers. The
streamlined OIC process requires IRS employees to telephone taxpayers as the primary means of
contact instead of mailing letters requesting information. Offers from wage earners and
self-employed taxpayers with incomes of $100,000 or less and liabilities of $50,000 or less are
categorized as streamlined offers. Offers exceeding these requirements are considered
non-streamlined offers and follow the regular process.
This review was performed at the SB/SE Division Campus Compliance Services Office
in New Carrollton, Maryland, and the IRS Campuses in Holtsville, New York, and
Memphis, Tennessee, during the period June through November 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers




                                Results of Review

Our review results showed that while the streamlined offer program has been effective in
processing and closing offers in less time than under the non-streamlined process, OIC
procedures could be improved to reduce taxpayer burden and inequitable treatment of taxpayers.
Specifically, we determined that:
      The IRS has taken positive steps to improve and promote the OIC Program.
      Offers were not always processed timely.
      Offers reconsidered after IRS processing errors are improperly delayed.
      Streamlined offers lack formal performance measures.

The Internal Revenue Service Has Taken Positive Steps to Improve
and Promote the Offer in Compromise Program
The streamlined offer process allows employees to make taxpayer contact by telephone rather
than by mail so they can quickly make a determination on the OIC request. This policy has
allowed the OIC staff to process and close offers in less time than the non-streamlined process.
Faster determinations enabled the IRS to process streamlined offers an average of 28 days faster
than non-streamlined offers in FY 2011. More than 67 percent of streamlined offers were closed
in less than six months, compared with 49 percent for the non-streamlined offers. In addition, it
takes an OIC employee two fewer hours to work a streamlined offer compared to a
non-streamlined offer. IRS management informed us that employees assigned to the streamlined
offer program are enthusiastic about the program and consider it a significant improvement over
the non-streamlined process. In FY 2011, the IRS reported that more than 42 percent of the offer
receipts were classified as streamlined offer requests.
In March 2011, the IRS updated Form 656 and the related information booklet to make it easier
for taxpayers to understand and complete OIC requests. The IRS also completed an instructional
video to help taxpayers when preparing the Form 656. To better promote the OIC Program, the
IRS added links to OIC Program information on the IRS.gov website home page and developed a
tax tip video to promote OICs on the “You Tube” website.




                                                                                          Page 3
                   Increasing Requests for Offers in Compromise Have Created
                     Inventory Backlogs and Delayed Responses to Taxpayers



Offers Were Not Always Processed Timely
The combined impact of a weak economy and IRS efforts to promote the OIC Program has
increased the number of requested offers. However, the resources available to work the offers
have decreased.3 This condition has created a backlog of offers in inventory. Figure 1 shows
increasing trends in the numbers of new OIC receipts and ending inventory over the past
five years.
                           Figure 1: OIC Inventory FYs 2007–2011




        Source: Collection Information System Reports from FYs 2007 through 2011.

New offer receipts increased from 46,270 in FY 2007 to 59,411 receipts in FY 2011
(28 percent). This increase in offer receipts, coupled with a decrease in resources to work the
offers, has caused the OIC ending inventory levels to increase from 23,003 in FY 2007 to 36,069
in FY 2011 (57 percent).

The OIC staff did not always contact taxpayers when promised
When an OIC request is submitted with all required information, the OIC staff sends the taxpayer
a “Combo A” letter. This letter states that the information has been received and provides a date
by which the IRS will contact the taxpayer about the status of his or her offer. However, if
critical information was omitted and/or if there are processing problems with the submitted offer,
instead of sending a “Combo A” letter, the OIC staff initiates contact by issuing a separate letter
to the taxpayer requesting additional information.

3
 The number of IRS employees who process OICs decreased from 344 employees in FY 2007 to 334 employees in
FY 2011.
                                                                                                  Page 4
                      Increasing Requests for Offers in Compromise Have Created
                        Inventory Backlogs and Delayed Responses to Taxpayers



Internal Revenue Manual procedures require OIC staff to take action on OIC requests within
45 calendar days from the date the letter is sent to the taxpayer.4 Because of the increased
number of offers received, the IRS has made informal changes to the process for contacting
taxpayers about their offer status.
        In September 2010, management notified OIC staff that they may use a more realistic
         follow-up date, up to 90 days when appropriate, for the “Combo A” letter (an increase of
         45 days).
        In January 2011, management advised OIC staff to send an interim letter to taxpayers
         who had not been contacted by the date provided in the “Combo A” letter. The interim
         letter notified taxpayers that it may be another 90 days before the IRS contacted them
         about their offer. This change extended the promised contact date up to 180 days.
We selected a random statistical sample of 193 streamlined and non-streamlined offers submitted
between July 1 and December 31, 2010, to evaluate compliance with OIC processing
procedures.5 We reviewed information retained in the Integrated Data Retrieval System,
Integrated Collection System, and the Automated Offer in Compromise (AOIC) System, as
appropriate. In our sample, 99 offers included a “Combo A” letter (these letters are not required
if the taxpayer did not provide all required information). In 73 (74 percent) of the 99 offers, the
OIC staff did not contact the taxpayer by the date promised. Additionally, in 66 of the 73 offers
with late contact, the OIC staff did not send an interim letter notifying the taxpayer that there
would be additional time before they would be contacted. Based on the results of our
statistically valid sample, we project that 9,509 taxpayers who submitted offers between
July 1 and December 31, 2010, may not have been contacted by the date promised by the OIC
staff. We are 95 percent confident the number of taxpayers not timely contacted is between
7,569 and 11,450.6 Figure 2 shows taxpayers with both streamlined and non-streamlined offers
were not contacted by the date promised.




4
  Internal Revenue Manual 5.8.3.7.1 (March 26, 2010).
5
  A valid statistical sample of OICs was selected from a population of 28,940 offers received between July 1 and
December 31, 2010. The total sample of 193 OICs was based on a confidence level of 90 percent, a precision level
of ±5 percent, and an expected error rate of 10 percent.
6
  To project the results of our statistical sample, we used a 95 percent confidence level, a 32.86 percent error rate,
and a 6.71 percent precision factor.
                                                                                                               Page 5
                       Increasing Requests for Offers in Compromise Have Created
                         Inventory Backlogs and Delayed Responses to Taxpayers



                     Figure 2: Analysis of Timeliness of Taxpayer Contact
                           for Offers With a “Combo A” Letter Sent

                                                     Offers in Which
                                   Offers With       Taxpayer Was            Offers        Number of Days
                                    a “Combo         Not Contacted          With an        Late Contacting
           Type of                  A” Letter          by the Date          Interim         the Taxpayer
         Sampled Case                  Sent             Promised           Letter Sent         (Range)

     Non-Streamlined Cases              39                   24                 5           10 – 195 days

     Streamlined Cases                  60                   49                 2            8 – 155 days

     Total Cases                        99                   73                 7            8 – 195 days
    Source: Our analysis of sampled offer cases received from July 1 through December 31, 2010.

When a follow-up date is present in the AOIC System, the offer will be included on a follow-up
list and the OIC staff will be notified to take further action on the offer. For example, employees
might ensure information requested from the taxpayer has been received, or send the taxpayer an
interim letter if more time is necessary before contact.
The Internal Revenue Manual7 requires OIC staff to record the mailing date of letters in the
AOIC System, which then generates follow-up dates. OIC staff may also manually enter
follow-up dates into the AOIC System. However, the OIC staff did not always input mailing
dates or manually establish follow-up dates in the AOIC System. As a result, an interim letter
was not always sent to notify the taxpayer of a new contact date if contact was not made by the
promised date on the “Combo A” letter.

The inventory backlog of offers is unevenly distributed
As of October 25, 2011, the OIC inventory reports showed there were 7,472 unassigned offers in
the COIC sites’ holding queues awaiting assignment to OIC staff. Figure 3 shows the total
unassigned inventory at the COIC sites. Twenty-two percent of the Memphis COIC site’s
unassigned offers were more than six months old, compared to only 0.1 percent at the
Brookhaven COIC site.8




7
    Internal Revenue Manual 5.8.3.7.1 (March 26, 2010).
8
    The Brookhaven COIC site is located in Holtsville, New York.
                                                                                                       Page 6
                   Increasing Requests for Offers in Compromise Have Created
                     Inventory Backlogs and Delayed Responses to Taxpayers



          Figure 3: Inventory of Total Unassigned Offers at Each COIC Site




     Source: IRS AOIC Inventory Management Reports, as of October 25, 2011.

The unassigned offers included both wage earners and self-employed taxpayers. The
offers from self-employed taxpayers are generally more complex and are, therefore, assigned to
more experienced staff. However, COIC site officials informed us that they do not have a
sufficient number of experienced staff who can work them. Figure 4 shows the unassigned
inventory for self-employed taxpayers at the COIC sites. The Memphis COIC site had more than
four times as many unassigned offers from self-employed taxpayers compared with the
Brookhaven COIC site, and 37 percent of the offers were more than six months old. Only
0.15 percent of the unassigned offers from self-employed taxpayers at the Brookhaven COIC site
were more than six months old.




                                                                                       Page 7
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



                    Figure 4: Inventory of Unassigned Offers From
                      Self-Employed Taxpayers at Each COIC Site




          Source: IRS AOIC Inventory Management Reports, as of October 25, 2011.

Offers are assigned to the COIC sites based on the taxpayer’s State of residence. There is no
formal process in place to assess the backlog of offers and possibly redistribute the offer
inventory, as needed. Because of the long wait for the offers to be processed, the varying
timelines depending on the type of taxpayer, and the location where the offer is assigned,
taxpayers are not always being treated equitably. Further, IRS delays could impact taxpayers’
important financial and business decisions because they do not know if or when their tax
liabilities will be resolved.
Management Actions: After we informed management of our results, COIC site officials
transferred approximately 300 self-employed offers that were more than 120 days old from the
Memphis COIC site to the Brookhaven COIC site.

Recommendations
The Director, Collection Policy, SB/SE Division, should:
Recommendation 1: Issue an Interim Guidance Memorandum to notify OIC staff of the
change to a more appropriate number of days for the contact by date to be used on the


                                                                                         Page 8
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



“Combo A” letters sent to taxpayers. Also, require issuing an interim letter if contact is not
made by the specified number of days.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will issue an Interim Guidance Memorandum to notify OIC staff of the change to a
       more appropriate number of days for the contact by date to be used on the “Combo A”
       letters sent to taxpayers. The Interim Guidance memorandum will also require the OIC
       staff to issue an interim letter if contact is not made within the specified number of days.
Recommendation 2: Require the OIC staff to monitor unassigned offers weekly and generate
interim letters for those offers reaching the prescribed number of days.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will continue to require the OIC staff to monitor unassigned offers weekly and
       generate interim letters for those offers reaching the prescribed number of days. The IRS
       has developed a systemic method for generating interim letters that eliminates the
       possibility of employees failing to do so in a timely manner.
Recommendation 3: Review inventory reports to determine the site level inventory of
unassigned offers on a quarterly basis and reassign offers between the sites as needed.
         Management’s Response: IRS management agreed with this recommendation. In
         February 2010, the Director, Campus Compliance Services, directed the headquarters
         staff to run a report every two weeks showing the cases that have been in inventory for
         the longest period of time. They will review this report at least quarterly for inventory
         imbalances and reassign offers between the sites when appropriate.

Offers Reconsidered Due to Internal Revenue Service Processing
Errors Are Improperly Delayed
Offers are generally returned to the taxpayer when the taxpayer fails to provide information
necessary to determine whether the offer should be accepted. A taxpayer is allowed to request
reconsideration of a returned offer within 30 calendar days of the return date. Examples of
acceptable reasons when reconsideration may be applicable include:
      An offer that was returned in error.
      Information was sent timely, but it was not associated with the offer file.
      The taxpayer had a serious illness.
      A death in the taxpayer’s family.
For approved offer reconsiderations, a new offer record is entered into the AOIC System with the
same data as the original offer, except for the received and pending date fields. These dates

                                                                                             Page 9
                      Increasing Requests for Offers in Compromise Have Created
                        Inventory Backlogs and Delayed Responses to Taxpayers



should be updated with the date that the missing information, substantiation, Forms 656, and/or
applicable fees were received from the taxpayer.
In our sample of 193 offers, we identified four offers that involved reconsideration due to an IRS
processing error. The COIC site staff incorrectly concluded the taxpayers failed to meet the offer
requirements and unnecessarily returned them to the taxpayers. After realizing the mistake
(usually after the taxpayer responded to the return notice), the IRS approved the reconsidered
offers. However, when establishing the new offer record in the AOIC System, COIC site
employees used the date that they established the new offer record as the received date. The
correct received date for the new offer record should have been the date the taxpayer provided
the required documentation. Based on our statistically valid sample, we project that
712 taxpayers who submitted offers between July 1 and December 31, 2010, may have had their
offers returned due to an IRS error, and the wrong received date was used on the reconsidered
offer. We are 95 percent confident the number of taxpayers with improper dates is between 93
and 1,537.9
We identified inconsistencies in the dates entered by both of the COIC site locations. Additional
taxpayer burden is created when an offer is returned to the taxpayer as a result of an IRS error.
For an offer to be reconsidered, the taxpayer has to resolve the situation by calling the IRS and
providing evidence that they already submitted the requested information. The reconsidered
offers require reestablishing the offer on the AOIC System which, depending on the received
date used for the offer, can result in increased processing time for the taxpayer’s offer.

Recommendation
Recommendation 4: The Director, Collection Policy, SB/SE Division, should ensure
employees are properly trained to follow the offer reconsideration procedures and use the
appropriate received date for the new offer record.
         Management’s Response: IRS management agreed with this recommendation. The
         IRS will train employees to follow the reconsideration procedures and use the appropriate
         received date for the new offer record.

Streamlined Offers Lack Formal Performance Measures
The IRS Balanced Performance Measurement System was developed to reflect IRS priorities
consistent with the mission and strategic goals. The IRS uses balanced measures at both the
strategic level and the operational level to measure organizational performance. The IRS’s
Collection Information System reports assess collection production activity nationwide,


9
  To project the results of our statistical sample, we used a 95 percent confidence level, a 2.46 percent error rate, and
a 2.14 percent to 2.85 percent precision factor.
                                                                                                               Page 10
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



including the OIC activity. The Collection Information System Report of Offer in Compromise
Activity is a cumulative report that measures productivity for the current fiscal year. The report
is used by managers for budget planning, program evaluation, operational control, and analysis
of resource allocation.
In June 2010, the SB/SE Division initiated the streamlined OIC Program to expedite the
processing of offers for qualified taxpayers. The SB/SE Division established an informal process
to measure the productivity of the streamlined OIC Program. An offer category code within the
AOIC System is used to identify and track the streamlined offers. OIC management created a
cumulative Streamlined Summary Report to informally measure the streamlined offer activity
since its implementation and results are reported to IRS senior management. However, the
Report of Offer in Compromise Activity, which measures OIC activity nationwide for the current
fiscal year, does not differentiate between the streamlined and the non-streamlined OIC activity.
The streamlined offer process has had a major impact on the overall OIC Program, accounting
for 42 percent of the OIC inventory for FY 2011.
The SB/SE Division does not plan to establish separate measures for the streamlined OICs within
the Report of Offer in Compromise Activity. Management is considering a policy change to have
all offers follow the streamlined process. However, this policy change is still in the discussion
phase and it is unknown if or when this change will be implemented.
Because the streamlined offers are a significant part of the overall OIC Program, an identifiable
measure needs to be established. Separately reporting streamlined and non-streamlined OIC data
will provide IRS management and stakeholders with an effective means to assess the
performance of the streamlined OIC Program. Additionally, specific measures provide a basis
for establishing goals, budget planning, resource allocation, and creating historical patterns and
trends, as well as identifying any potential problems.

Recommendation
Recommendation 5: The Director, Collection Policy, SB/SE Division, should establish a
performance measure for the streamlined offers in the Collection Information System Report of
Offer in Compromise Activity or apply the streamlined process to the entire inventory of offers.
       Management’s Response: IRS management agreed to apply most aspects of the
       streamlined process to the entire inventory of taxpayer offers. Although the streamlined
       process was originally intended for less complex offers, most aspects of the process can
       be applied to all offers. However, some of the most complex offers would not benefit
       from complete streamline processing. An Interim Guidance memorandum has been
       drafted and is awaiting approval.




                                                                                            Page 11
                       Increasing Requests for Offers in Compromise Have Created
                         Inventory Backlogs and Delayed Responses to Taxpayers



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the OIC1 Program to
timely process requests, consistently apply OIC guidelines, accurately measure Program results,
and effectively promote the Program. To accomplish the objective, we:
I.         Determined whether current OIC requirements are being followed when the offers are
           received and processed and if the requirements promote efficient disposition of the OIC.
           A. Interviewed SB/SE Division analysts to clarify the Internal Revenue Manual criteria
              for the OICs, including any changes that have been implemented, to improve the
              processing of the OICs.
           B. Reviewed a valid statistical sample of 96 streamlined and 97 non-streamlined offers
              received from July 1 to December 31, 2010. We reviewed each case to determine if
              OIC policies and procedures were consistently followed, taxpayers were contacted in
              a timely manner, and if overall processing time (from receipt to closure) was
              appropriate.
               The sample selected was based on random sampling techniques using random case
               selection from a population of 8,932 streamlined and 20,008 non-streamlined offers.
               The sample selections of 96 streamlined and 97 non-streamlined offers were each
               based on a confidence level of 90 percent with a ±5 percent precision level and an
               expected error rate of 10 percent. The Treasury Inspector General for Tax
               Administration contract statistician was consulted throughout the development and
               selection of this sample.
               Validity and reliability of data from computer-based systems: We obtained OIC
               data processed by the IRS and stored on the Treasury Inspector General for Tax
               Administration Data Center Warehouse. We compared the data to information
               processed and stored in the AOIC System, Individual Master File, and Business
               Master File. We used the Taxpayer Identification Number as the control to validate
               the accuracy of the matching of the tax return information stored on the AOIC
               System, Master File, and the Integrated Data Retrieval System. The data were
               sufficiently reliable to perform our audit analyses.
           C. Reviewed OIC operational reviews to identify any significant issues and determined
              whether corrective actions were implemented.

1
    See Appendix V for a glossary of terms.
                                                                                            Page 12
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



II.    Determined whether the IRS is effectively measuring the OIC Program results.
       A. Reviewed the Collection Information System Report of Offer in Compromise
          Activity reports and identified statistics that are available for the OICs for FYs 2007
          through 2011 and determined whether there has been any increase or decrease in
          inventory levels.
       B. Reviewed the reports used by the SB/SE Division to measure the progress of the
          streamlined OICs.
       C. Discussed with SB/SE Division management plans to add performance measures for
          the streamlined OICs to the Collection Information System Report of Offer in
          Compromise Activity.
III.   Determined whether the IRS has implemented the recommendations from the OIC
       studies to promote the OIC Program.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division policies, procedures, and
practices for processing and working OICs. We evaluated these controls by reviewing source
materials, interviewing management, reviewing a sample of offer case files, and researching
taxpayer accounts.




                                                                                           Page 13
                 Increasing Requests for Offers in Compromise Have Created
                   Inventory Backlogs and Delayed Responses to Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Glen J. Rhoades, Audit Manager
Beverly K. Tamanaha, Lead Auditor
Michael A. Garcia, Senior Auditor
Ali A. Vaezazizi, Auditor
Joseph L. Katz, Ph.D, Contractor, Statistical Sampling Consultant




                                                                                      Page 14
                Increasing Requests for Offers in Compromise Have Created
                  Inventory Backlogs and Delayed Responses to Taxpayers



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 15
                       Increasing Requests for Offers in Compromise Have Created
                         Inventory Backlogs and Delayed Responses to Taxpayers



                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Burden – Potential; 9,509 taxpayers affected (see page 4).

Methodology Used to Measure the Reported Benefit:
We selected a random statistical sample of 193 OICs1 from the total population of 28,940 offers
submitted between July 1 and December 31, 2010. We selected this type of sample so that we
could project our results to the population of offers for this time period. In our sample of
193 offers, 99 included a letter (“Combo A”) notifying the taxpayer when the IRS would be in
contact (these letters are not always required). In 73 of the 99 offers, the IRS did not contact the
taxpayer by the date promised. Additionally, in 66 of the 73 offers with late contact, the IRS did
not send an interim letter to the taxpayer extending the contact date.
To project the results of our statistical sample, we used a 95 percent confidence level,
32.86 percent error rate, and a 6.71 percent precision factor. Based on these parameters,
9,509 taxpayers with offers submitted between July 1 and December 31, 2010, may
not have been contacted by the date the IRS promised (the projected range is 7,569 to
11,450 taxpayers).

Type and Value of Outcome Measure:
     Taxpayer Burden – Potential; 712 taxpayers affected (see page 9).

Methodology Used to Measure the Reported Benefit:
We selected a random statistical sample of 193 offers from the total population of 28,940 offers
submitted between July 1 and December 31, 2010. We selected this type of sample so we could
project our results to the population of offers for this time period. In our sample of 193 offers,
we identified four offers in which the taxpayer requested the offer be reconsidered due to IRS
processing errors. The IRS had incorrectly concluded the taxpayers failed to meet the offer
requirements in these offers and unnecessarily returned them to the taxpayers. After realizing

1
    See Appendix V for a glossary of terms.
                                                                                            Page 16
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



the mistake (usually after the taxpayer responded), the IRS reestablished the offers using the
resubmitted offer dates instead of the appropriate date. The correct received date for the new
offer record should have been the date the taxpayer provided the required documentation.
To project the results of our statistical sample, we used a 95 percent confidence level,
2.46 percent error rate, and a 2.14 percent to 2.85 percent precision factor. Based on these
parameters, 712 taxpayers who submitted between July 1 and December 31, 2010, may have had
their offer returned due to an IRS error and had the wrong IRS received date used on the
reconsidered offer (projected range of 93 to 1,537 taxpayers).




                                                                                          Page 17
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



                                                                                 Appendix V

                               Glossary of Terms

Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Automated Offer in Compromise System – Computer application where an OIC is recorded
and monitored from receipt to closure. COIC sites, Area offices, and the compliance campus
share a common database that contains relevant offer information. The AOIC System allows the
user to process, view, and track the status of each offer. The program also generates forms,
letters, and managerial reports.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Centralized Offer in Compromise Site – Campus locations (Holtsville, New York, and
Memphis, Tennessee) responsible for processing an offer in compromise received based on the
taxpayer’s State of residency.
Collection Information System – Computer application that is a repository of reports for
Headquarters Small Business/Compliance Programs that contain widely used collection activity
information.
Currently Not Collectible – As a general rule, accounts will be reported as currently not
collectible when the taxpayer has no assets or income which are, by law, subject to levy.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Installment Agreement – Arrangements by which the IRS allows taxpayers to fully pay
liabilities over time in smaller manageable payments




                                                                                            Page 18
                  Increasing Requests for Offers in Compromise Have Created
                    Inventory Backlogs and Delayed Responses to Taxpayers



Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Offer in Compromise – An agreement between a taxpayer and the Federal Government that
settles a tax liability for payment of less than the full amount owed.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Streamlined Offer in Compromise – An expedited offer in compromise program for qualified
taxpayers who are wage earners, unemployed, or self-employed (no employees and gross
receipts less than $500,000) with incomes of $100,000 or less and liabilities of $50,000 or less.
The program includes fewer requests for additional financial information, contacting the
taxpayer by telephone for additional information versus by mail, and greater payment flexibility.




                                                                                         Page 19
    Increasing Requests for Offers in Compromise Have Created
      Inventory Backlogs and Delayed Responses to Taxpayers




                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 20
Increasing Requests for Offers in Compromise Have Created
  Inventory Backlogs and Delayed Responses to Taxpayers




                                                     Page 21
Increasing Requests for Offers in Compromise Have Created
  Inventory Backlogs and Delayed Responses to Taxpayers




                                                     Page 22
Increasing Requests for Offers in Compromise Have Created
  Inventory Backlogs and Delayed Responses to Taxpayers




                                                     Page 23
Increasing Requests for Offers in Compromise Have Created
  Inventory Backlogs and Delayed Responses to Taxpayers




                                                     Page 24
